Case: 19-20420

Document: 00515664302

Page: 1

Date Filed: 12/07/2020

®mteb States Court of Appeals
for tfje Jftftf) Circuit

United States Court of Appeals
Fifth Circuit

FILED
December 7, 2020

No. 19-20420
Summary Calendar

Lyle W. Cayce
Clerk

Raymond E. Carr,
Plaintiff—Appellant,
versus
Sheriff Ed Gonzalez, Chief, Harris County Sheriff’s
Department, in his individual and official capacity, Probable Cause
Judge, in his individual and official capacity; UTMB Medical
Department, in its individual and official capacity, ISS
Facility/International Airline Security, in its individual and
official capacity; New Hope Housing, in its individual and official
capacity; Art Acevedo, Chief, Houston Police Department,
in his individual and official capacity, Wells Fargo Bank, in its
individual and official capacity, Krash Cabin Management, inks
individual and official capacity, Imperio Used Car Dealership;
Texas Post Master General, in his individual and official capacity,
Houston Police Department; United States Postal
Service,
Defendants—Appellees,
CONSOLIDATED WITH

No. 19-20621

Case: 19-20420

Document: 00515664302

Page: 2

Date Filed: 12/07/2020

No. 19-20420
c/w No. 19-20621

Lord

of the

Streets Raymond E. Carr,
Plaintiff—Appellant,
versus

Civil Rights Project; Lone Star Legal Aid; Beacon Law
Center; 7031 Koll Center; Metropolitan Transit
Authority; U.S. Equal Employment Opportunity
Commission; Harris County Hospital District; Biomat
Plasma Center; Coordinated Access Housing; Texas
Health and Human Services Commission; Houston
Community College; Assurance Wireless; FBI Agency,
Defendants—Appellees.

Appeals from the United States District Court
for the Southern District of Texas
USDC No. 4:19-CV-1754
USDC No. 4:18-CV-3551

Before Wiener, Southwick, and Duncan, Circuit Judges.
Per Curiam:*
Raymond E. Carr appeals the district court’s dismissal without
prejudice of Carrv. Gonzalez, No. 4:19-CV-1754, as barred by the 28 U.S.C.
§ 1915(g) bar. See § 1915(g). He also appeals the district court’s denial of his
motion to reopen or amend the dismissal with prejudice of Carrv. Civil Rights
Project, No. 4:18-CV-3551, for want of prosecution. However, he has
abandoned, by failing to brief, the only cognizable issues on appeal. See Yohey

* Pursuant to 5th Circuit Rule 47.5, the court has determined that this
opinion should not be published and is not precedent except under the limited
circumstances set forth in 5th Circuit Rule 47.5.4.

2

Case: 19-20420

Document: 00515664302

Page: 3

Date Filed: 12/07/2020

No. 19-20420
c/w No. 19-20621
v. Collins, 985 F.2d 222, 224-25 (5th Cir. 1993); Brinkmann v. Dallas Cnty.
Deputy SheriffAbner, 813 F.2d 744, 748 (5th Cir. 1987). The judgments of
the district court are therefore AFFIRMED.
Carr’s motions to supplement the record reference events that post­
date the filing of these appeals. As those facts cannot be considered for the
first time on appeal, those motions are DENIED. See Theriot v. Parish of
Jefferson, 185 F.3d 477, 491 n.26 (5th Cir. 1999); Leverette v. Louisville Ladder
Co., 183 F.3d 339,342 (5th Cir. 1999). Because Carr has not shown that he is
entitled to injunctive relief from this court in the first instance, his motions
for preliminary and permanent injunctions are also DENIED. See Byrum v.
Landreth, 566 F.3d 442, 445 (5th Cir. 2009); Amoco Prod. Co. v. Village of
Gambell, 480 U.S. 531,546 n.12 (1987); Greene v. Fair, 314 F.2d 200,202 (5th
Cir. 1963).
Carr is REMINDED that, because he has accumulated at least three
strikes under § 1915(g), he is barred from proceeding in forma pauperis in any
civil action or appeal filed while he is incarcerated or detained in any facility
unless he is under imminent danger of serious physical injury. He is also
WARNED that, regardless of the § 1915(g) bar, any frivolous, repetitive, or
otherwise abusive filings that he files will invite the imposition of additional
sanctions, which may include dismissal, monetary sanctions, and restrictions
on his ability to file pleadings in this court and any court subject to this court’s
jurisdiction.
AFFIRMED;

MOTIONS

DENIED;

REMINDED

OF

THREE STRIKES BAR; ADDITIONAL SANCTION WARNING
ISSUED.

3

Case 4:l9-cv-01754 Document 9 Filed on 05/22/19 in TXSD Page 1 of 4
United States District Court
Southern District of Texas

ENTERED
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
RAYMOND EARL CARR,
(Former SPN #00700984)
Plaintiff,

§
§
§
§

vs.

§

SHERIFF ED GONZALEZ, et al.,
Defendants.

May 23, 2019
David J. Bradley, Clerk

CIVIL ACTION H-19-1754

•5
§
§
$

MEMORANDUM ON DISMISSAL

Raymond Earl Carr, a former inmate of the Hams County Jail (“HCJ”), sued in April 2019,
alleging civil rights violations resulting from a denial of due process. Carr seeks leave to proceed
as a pauper. (Docket Entry No. 3). Carr, proceeding pro se, sues Sheriff Ed Gonzalez; the probable
cause judge; the UTMB Medical Department; ISS Facility/Intemational Airline Security; New Home
Housing; Art Acevedo, Chief of the Houston Police Department (“HPD”); Wells Fargo Bank; Krash
Cabin Management; Imperio Used Car Dealersliip; Texas Postmaster General; Houston Police
Department; and the U.S. Postal Service.
The threshold issue is whether Carr’s claims should be dismissed as barred by the threestrikes provision of 28 U.S.C. § 1915(g). The Court concludes that Carr’s claims are barred and
should be dismissed for the reasons stated below.
I.

Carr’s Allegations
Carr asserts that the defendants are conspiring to violate his civil rights based on his race,

Case 4:19-cv-01754 Document 9 Filed on 05/22/19 in TXSD Page 2 of 4

religion, and political views. Carr alleges that in January 2019, he called the HPD to report
harassment from his supervisor who was Mexican. Carr complains that Krash Cabin Management
conspired with the residents to retaliate against Carr by damaging Carr’s automobile. Carr asserts
that Mexican employees of Wells Fargo Bank defrauded Carr of funds in his savings account. Carr
maintains that the Mexican employee of the Imperio Used Car Dealership overcharged Carr for his
automobile.
Carr states that on March 18, 2019, Carr confronted a fellow resident about the damage to
his automobile. Carr states that he showed the resident a knife and threatened to kill him or anyone
who damaged Carr’s property. The residents called 911 to report Carr’s actions. Carr asserts that
the white HPD officer who responded to the 911 call did not listen to Carr, and the Mexican HPD
officer simply stayed in the patrol vehicle. Gut complains that he was falsely charged with
aggravated assault with a deadly weapon although Carr did not inflict any harm to his fellow
resident. Carr asserts that the Mexican officer at the HCJ, the probable cause judge, and his courtappointed counsel conspired to deny Carr’s request for bond. Carr contends that the HCJ continues
to interfere with his legal mail.
Carr seeks $ 1,000,000.00 in compensatory damages and $2,000,000.00 in punitive damages.
II.

Analysis
A prisoner is not allowed to bring a civil a ction in forma pauperis in federal court if, while

incarcerated, three or more of his civil actions or appeals were dismissed as frivolous or malicious
or for failure to state a claim upon which relief may be granted, unless he is in imminent danger of
serious physical injury. 28U.S.C. § 1915(g).
Carr’s litigation history reveals that he has previously submitted abusive and scurrilous
2

Case 4:19-cv-01754 Document 9 Filed on 05/22/19 in TXSD Page 3 of 4

filings in federal court. Prior to filing this action, he had at least one suit and two appeals dismissed
as frivolous. Carr v. Norwood, Appeal No. 02-2C162 (dismissed as frivolous on July 18,2002)(5th
Cir.); Carr v. Galloway, Appeal No. 01-41150 (dismissed as frivolous on June 18,2002)(5th Cir.);
and Carr v. Norwood, 4:01cv3553 (dismissed as frivolous on October 30,2001)(S.D. Tex.).
In the present case, Carr has not alleged, nor does his complaint demonstrate, that he is in
imminent danger of serious physical injury. Accordingly, Carr is barred under 28 U.S.C. § 1915(g)
from proceeding in forma pauperis in this action.
III.

Conclusion
Carr’s motion to proceed as a pauper, (Docket Entry No. 3), is DENIED. The complaint filed

by Raymond Earl Carr, (former SPN #00700984), is DISMISSED under 28 U.S.C. § 1915(g).' All
pending motions are DENIED. Carr is waned lhat continued frivolous filings may result in the
imposition of sanctions.
The Clerk will provide a copy of this order by regular mail, facsimile transmission, or e-mail
to:

(1)

the TDCJ - Office of the General Counsel, Capitol Station, P.O. Box 13084, Austin,

Texas 78711, Fax: 512-936-2159;
(2)

the Inmate Trust Fund, P.O. Box 629, Huntsville, Texas 77342-0629, Fax:

936-437-4793; and

'In Adepegba v. Hammons, 103 F.3d 383 (5th Cir. 1998), the Fifth Circuit barred an inmate from
proceeding further under the statute, except for cases involving an imminent danger of serious physical
injury, and dismissed all of Adepegba's i.f.p. appeals pending in that court. The Fifth Circuit noted that the
inmate could resume any claims dismissed under section 1915(g), if he decided to pursue them, under the
fee provisions of 28 U.S.C. §§ 1911-14 applicable to everyone else.
3

Case 4:19-cv-0l754 Document 9 Filed on 05/22/19 in TXSD Page 4 of 4

(3) the Manager of the Three-Strikes List for the Southern District of Texas at:
Three_Strikes@txs.uscourts.gov.
SIGNED at Houston, Texas, on

HAY 2 2 2019

ALFRED H.Bl NNETT
UNITED STATES DISTRICT JUDGE

4

Case4:l9-cv-0l754 Document 10 Filed on 05/22/19 in TXSD Page 1 of 1
United States District Court
Southern District of Texas

ENTERED
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
RAYMOND EARL CARR,
(Former SPN #00700984)
Plaintiff,

§
§
§
§

vs.

§

SHERIFF ED GONZALEZ, et al.,

§
§

May 23, 2019
David J. Bradley, Clerk

CIVIL ACTION H-19-1754

8

Defendants.

§

ORDER OF DISMISSAL
For the reasons stated in this Court’s Memorandum on Dismissal entered this date, this civil
action is DISMISSED without prejudice to refiling after payment of the entire $350.00 filing fee.
The Court must receive the payment within thirty days of this order.
SIGNED at Houston, Texas, on

HAY 2 2 2019

11
ALF RED H. BE| fNETT
UNITED STATE S DISTRICT JUDGE

Case 4:l9-cv-0l754 Document 21 Filed on 07/26/19 in TXSD Page lot 4
United States District Court
Southern District of Texas

ENTERED
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
RAYMOND EARL CARR,
(Former SPN #00700984)
Plaintiff,

§
§
§
§

vs.

§

July 26, 2019
David J. Bradley, Clerk

CIVIL ACTION H-19-1754

§
§
§
§

SHERIFF ED GONZALEZ, et al.,
Defendants.

AMENDED ORDER

Raymond Earl Carr, an inmate of the Harris County Jail (“HC.J”), sued in April 2019,
alleging civil rights violations resulting from a denial of due process. Carr requested leave to
proceed as a pauper. (Docket Entry No. 3). Carr, proceeding pro se, sued Sheriff Ed Gonzalez; the
probable cause judge; the UTMB Medical Department; ISS Facility/International Airline Security;
New Home Housing; Art Acevedo, Chief of the Houston Police Department (“HPD”); Wells Fargo
Bank; Krash Cabin Management; Imperio Used Car Dealership; Texas Postmaster General; Houston
Police Department; and the U.S. Postal Service.
On May 23,2019, this Court dismissed Carr’s claims as barred by the three-strikes provision
of 28 U.S.C. § 1915(g). (Docket Entry No. 9).
The Court received two Notices of Appeal. (Docket Entries Nos. 12 & 16). On July 18,
2019, this Court noted that Carr had not paid the appellate filing fee of $505.00 and that he was
barred from proceeding in forma pauperis on appeal because of the “three strikes” rule of 28 U.S.C.

case 4:l9-cv-0l754 Document 21 Filed on 07/26/19 in txsd Page 2 of 4

§ 1915(g). (Docket Entry No. 20).
A prisoner is not allowed to bring a civil action in forma pauperis in federal court if, while
incarcerated, three or more of his civil actions or appeals were dismissed as frivolous or malicious
or for failure to state a claim upon which relief may be granted, unless he is in imminent danger of
serious physical injury. 28 U.S.C. § 1915(g). It appears that Carr was no longer in the custody of
the Harris County Jail at the time he filed his Notices of Appeal, (Docket Entries Nos. 12 & 16).
Carr was not subject to the three-strikes provision of 28 U.S.C. § 1915(g) because he was not
incarcerated at the time he filed his Notices of Appeal.
The Court now considers Carr’s claims and whether his appeal is taken in good faith. In his
complaint, Carr asserts that the defendants are conspiring to violate his civil rights based on his race,
religion, and political views. Carr alleges that in January 2019, he called the HPD to report
harassment from his supervisor who was Mexican. Carr complains that Krash Cabin Management
conspired with the residents to retaliate against Carr by damaging Carr’s automobile. Carr asserts
that Mexican employees of Wells Fargo Bank defrauded Carr of funds in his savings account. Carr
maintains that the Mexican employee of the Imperio Used Car Dealership overcharged Carr for his
automobile.
Carr states that on March 18, 2019, Carr confronted a fellow resident about the damage to
his automobile. Carr states that he showed the resident a knife and threatened to kill him or anyone
who damaged Carr’s property. The residents called 911 to report Carr’s actions. Carr asserts that
the white HPD officer who responded to the 911 call did not listen to Carr, and the Mexican HPD
officer simply stayed in the patrol vehicle, Carr complains that he was falsely charged with
aggravated assault with a deadly weapon although Carr did not inflict any harm to his fellow

2

Case 4:l9-cv-01754 Document 21 Filed on 07/26/19 in TXSD Page 3 of 4

resident. Carr asserts that the Mexican officer at the HCJ, the probable cause judge, and his courtappointed counsel conspired to deny Carr’s request for bond. Carr contends that the HCJ continues
to interfere with his legal mail.
To prove a conspiracy, a plaintiff must prove an actual deprivation of a constitutional right.
Salvinv. Curry, 574 F.2d 1256,1261 (5lhCir. 1978); Villanuevav. Mclnnis, 723 F.2d414,418 (5th
Cir. 1984); see also Pfannstiel v. City of Marion, 918 F.2d 1178, 1183 (5th Cir. 1990). “The
elements of civil conspiracy arc (1) an actual violation of a right protected under § 1983 and (2)
actions taken in concert by the defendants with the specific intent to violate the aforementioned
right.” Kerr v. Lyford, 171 F.3d 330,340 (5th Cir. 1990). Merc conclusory allegations of conspiracy.
absent reference to material facts, do not state a cause of action under 42 U.S.C. § 1983. See Marts
v. Hines, 68 F.3d 134, 136 (5th Cir. 1995) (en banc). Specific facts must be pleaded when a
conspiracy is alleged; mere conclusory allegations will not suffice. Hale v. Harney, 786 F.2d 688,
690 (5th Cir. 1986). Plaintiff must allege the operative facts of the alleged conspiracy. Lynch v.
Cannatella, 810 F.2d 1363, 1369-70 (5th Cir. 1987), The Fifth Circuit has noted that “charges as
to conspiracies must be based on substantial and affirmative allegations, and no mere gossamer web
of conclusion or interference, as here, trifles light as air,” will suffice to sustain a claim of
conspiracy. Crummer Co. v. Du Pont, 223 F.2d 238, 245 (5th Cir. 1955, reh. den.).
Carr offers no facts, other than his personal belief, that there was a conspiracy, and such
allegations fail to state a claim. McAfee v. 5th Circuit Judges, 884 F,2d 221, 222 (5th Cir. 1989)
(conclusory allegations lacking reference to material facts are not sufficient to state a claim of
conspiracy under § 1983).
Accordingly, it is ORDERED that:

3

case 4:l9-cv-0l754 Document 21 Filed on 07/26/19 in TXSD Page 4 of 4

1.

The Court certifies that the appeal is not taken in good faith. 28U.S.C. § 1915(a)(3);

Fed. R. App. P. 24(a)(3).
2.

Although this Court has certified that the appeal is not taken in good faith under 28

U.S.C. § 1915(a)(3) and Fed. R. App. P. 24(a)(3), the applicant may challenge this finding under
Baugh v. Taylor, 117 F.3d 197 (5th Cir. 1997), by filing a separate motion to proceed in forma
pauperis on appeal with the Clerk of Court for the United States Court of Appeals for the Fifth
Circuit, within thirty days of the date of this order.
3.

The appellant is not assessed an initial partial filing fee because he lacks the requisite

4.

The application for leave to proceed in forma pauperis on appeal, (Docket Entry No.

funds.

15), is DENIED.
SIGNED at Houston, Texas, on

JUL 2 6 2013

ALFRED H. BENNETT ¥
UNITED STATES DISTFDCT JUDGE

4

Case 4:l8-cv-03551 Document 22 Filed on 08/20/19 in TXSD Page 1 of 1
United States District Court
Southern District of Texas

ENTERED
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
Lord of the Streets Raymond
E Carr,
V.
Civil Rights Project, et al,

August 20, 2019
David J. Bradley, Clerk

§
§
§
§
§
§
§

Civil Action No. 4:18-3551

ORDER
Pending before the Court is the Motion to Reopen Case or Amend the Judgment
(Document #21). Having considered the motion and the applicable law, the Court
determines that the foregoing motion should be denied. Accordingly, the Court hereby
ORDERS that the Motion to Reopen Case or Amend the Judgment (Document
#21) is DENIED.
SIGNED on the

nJ> day of August, 2019.

DAVID HITTNER
United States District Judge

Case 4:18-cv-03551 Document 9 Filed on 01/03/19 in TXSD Page 1 of 1
United States District Court
Southern District of Texas

ENTERED

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
Lord of the Streets Raymond
E. Carr,
Plaintiffs,
v.
Civil Rights Project, et al,
Defendants.

January 03, 2019
David J. Bradley, Clerk

§
§
§
§
§
§
§
§
§
§

Civil Action No.: H-18-3551

ORDER
On January 2, 2019, United States Magistrate Judge Peter Bray conducted a
Rule 16 Initial Scheduling Conference in the above-referenced cause. All parties failed
to appear at the Scheduling Conference. The Court hereby
Dismisses the above-referenced cause for WANT OF PROSECUTION.
Signed at Houston, TX on the

3

day of January, 2019.

DAVID HITTNER
United States District Judge

